                       National Science :Foundation • Office of Inspector General
                       4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230

MEMORANDUM

Date:            AliA 1 lt 2.014
To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants a · A

From:


Subject:       Audit Report No. 14-1-004
               University of California, Los Angeles

This memo transmits Cotton & Company's report for the audit of costs totaling $225.8 million
charged by the University of California, Los Angeles (UCLA) to its sponsored agreements with
NSF during the period July 1, 2009 through June 30, 2012. The objectives of the audit were to
identify and report on instances of unallowable, unallocable, and unreasonable costs, as well as
instances of noncompliance with regulations, Federal financial assistance requirements, and
provisions of the NSF award agreements as they relate to the transactions tested.

The auditors determined that costs that UCLA charged to its NSF sponsored agreements did not
always comply with applicable Federal requirements. Specifically, the auditors determined that
claimed costs totaling $2,358,380 were questioned for reasons relating to summer salaries
($2,111,653), per diem costs ($131,139), visa application fees ($73,135), equipment ($15,700),
general salaries ($15, 186), travel ($6, 104), indirect costs ($3,200), and technology infrastructure
fees ($2,263). UCLA incorrectly charged unallocable, unreasonable, and unallowable costs to
NSF awards.

The auditors recommended that NSF address and resolve the findings by requiring UCLA to
refund the questioned costs of $2,358,380 and strengthen administrative and management
processes and controls. UCLA did not agree with all of the recommendations; however, they did
agree that some of the questioned costs were unallowable. UCLA's response, described in the
report, is included in its entirety in Appendix B.

Appendix A contains a summary of the unallowable items that were questioned. Additional
information concerning the questioned items was provided separately by the OIG to the Division
oflnstitution and Award Support, Cost Analysis and Audit Resolution Branch. Please
coordinate with our office during the six month resolution period, as specified by OMB Circular
A-50, to develop a mutually agreeable resolution of the audit findings. Also, the findings should
not be closed until NSF determines that all recommendations have been adequately addressed
and the proposed corrective actions have been satisfactorily implemented.

OIG Oversight of Audit

To fulfill our responsibilities under generally accepted government auditing standards, the Office of
Inspector General:

      •   Reviewed Cotton & Company's approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Cotton & Company officials, as necessary, to discuss
          audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Cotton & Company to ensure compliance with
          generally accepted government auditing standards; and
      •   Coordinated issuance of the audit report.

Cotton & Company is responsible for the attached auditor's report on UCLA and the conclusions
expressed in the report. We do not express any opinion on the conclusions presented in Cotton
& Company's audit report.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Louise Nelson at 303-88-4689 or Ken
Lish at 303-844-4738.

Attachment

cc:       Alex Wynnyk, Branch Chief, CAAR
          Michael Van Woert, Executive Officer, NSB
          Ruth David, Audit & Oversight Committee Chairperson, NSB




                                                  2
      UNIVERSITY OF CALIFORNIA, LOS ANGELES



    PERFORMANCE AUDIT OF INCURRED COSTS FOR
NATIONAL SCIENCE FOUNDATION AWARDS FOR THE PERIOD
           JULY 1, 2009, TO JUNE 30, 2012
          NATIONAL SCIENCE FOUNDATION
           OFFICE OF INSPECTOR GENERAL
 Cotton&                                                  Collon &Comp.Jny u r
                                                          635 Slaters Lane

Colllpany                                                 4"' Floor
                                                          Alexandria. VA 223 14




Office of Inspector General
National Science Foundation
Arlington, VA

Subject: Perfonnance Audit of the University of Califomia, Los Angeles

Cotton & Company LLP (refened to as "we" in this letter) conducted a perfonnance audit of
expenditures rep01ted by the University of Califomia, Los Angeles (UCLA) on the Federal
Financial Rep01ts (FFRs) that it filed with the National Science Foundation (NSF) for cost
reimbursement against its grant awards. We evaluated whether the costs claimed by the
recipients were allocable, allowable, reasonable, and in confonnity with NSF award te1ms and
conditions, as well as with applicable federal fmancial assistance requirements. This
perf01mance audit, conducted under Contract No. D12PS00465, was designed to meet the
objective identified in the "Objectives, Scope, and Methodology" section of this rep01t.

We conducted this perfonnance audit in accordance with generally accepted govemment
auditing standards (GAGAS), issued by the Govemment Accountability Office (GAO) . We
communicated the results of our audit and the related fmdings and recommendations to UCLA
and the NSF Office of Inspector General.
                                                             TABLE OF CONTENTS

I.       BACKGROUND....................................................................................................................................... 1
II.      AUDIT RESULTS .................................................................................................................................... 1

      FINDING 1: OVERCHARGED SUMMER SALARIES ........................................................................................................ 2
      FINDING 2: UNSUPPORTED PER DIEM COSTS ............................................................................................................. 7
      FINDING 3: UNALLOWABLE VISA APPLICATION FEES ................................................................................................ 9
      FINDING 4: UNREASONABLE EQUIPMENT PURCHASES MADE AT THE END OF THE GRANT PERIOD..........................13
      FINDING 5: UNREASONABLE SALARY EXPENSE CHARGED TO AN AWARD ............................................................... 16
      FINDING 6: UNALLOCABLE DOMESTIC TRAVEL ....................................................................................................... 17
      FINDING 7: UNALLOWABLE APPLICATION OF INDIRECT EXPENSES .......................................................................... 20
      FINDING 8: UNALLOWABLE TECHNOLOGY INFRASTRUCTURE FEES ......................................................................... 22
      FINDING 9: LATE EFFORT REPORT CERTIFICATIONS ................................................................................................ 23
APPENDIX A: SCHEDULE OF QUESTIONED COSTS BY FINDING ........................................................ 25
APPENDIX B: UNIVERSITY OF CALIFORNIA, LOS ANGELES RESPONSE .......................................... 27

APPENDIX C: OBJECTIVES, SCOPE, AND METHODOLOGY ................................................................. 37
                           NATIONAL SCIENCE FOUNDATION
                       PERFORMANCE AUDIT OF INCURRED COSTS
                       UNIVERSITY OF CALIFORNIA, LOS ANGELES
I. BACKGROUND

The National Science Foundation (NSF) is an independent federal agency whose mission is “to
promote the progress of science; to advance the national health, prosperity, and welfare; and to
secure the national defense.” To support this mission, NSF funds research and education
opportunities across all fields of science and engineering, primarily through grants and
cooperative agreements awarded to more than 2,000 colleges, universities, and other institutions
throughout the United States.

Every federal agency has an Office of Inspector General (OIG) that provides independent
oversight of the agency’s programs and operations. Part of the NSF OIG’s mission is to conduct
audits and investigations to prevent and detect fraud, waste, and abuse. In support of this
mission, the NSF OIG may conduct independent and objective audits, investigations, and other
reviews to promote the economy, efficiency, and effectiveness of NSF programs and operations,
as well as to safeguard their integrity. The NSF OIG may also hire a contractor to provide audit
services.

In July 2012, the NSF OIG issued a solicitation to engage a contractor to conduct performance
audits of incurred costs for four separate NSF award recipients, including the University of
California, Los Angeles (UCLA). UCLA is a public research university whose mission is the
creation, dissemination, preservation, and application of knowledge for the betterment of our
global society. With over 40,000 students, UCLA is the largest university within the University
of California system, offering over 5,000 courses in 109 academic departments with 125
different majors. In 2011, UCLA exceeded $1 billion in competitively awarded research grants
and contracts in a single year; it was ranked among the nation’s top research universities by the
Center for Measuring University Performance. Our audit of UCLA, which covered the period
from July 1, 2009, through June 30, 2012, encompassed $225,830,782 in costs that UCLA
claimed on Federal Financial Reports (FFRs) related to 769 NSF awards.

II. AUDIT RESULTS

Based on the results of our testing, we determined there were a number of instances in which
UCLA did not comply with all federal, NSF, and university-specific award requirements.
Specifically, we determined that UCLA’s effort certification and reporting system does not
ensure that all effort reports are certified on a timely basis as required. In addition, we noted a
number of compliance issues that resulted in our questioning $2,358,380 of costs claimed by
UCLA. Specifically, we found:
   •   $2,111,653 in overcharged summer salaries.
   •   $131,139 in unsupported per diem costs.
   •   $73,135 in costs related to visa application fees that were inappropriately allocated to
       NSF awards.


                                                                                               Page | 1
    •   $15,700 in unreasonable equipment purchases made at the end of a grant’s period of
        performance.
    •   $15,186 in salary expenses that were unreasonably charged to an NSF award.
    •   $6,104 in unallocable domestic travel charged to NSF awards.
    •   $3,200 of unallowable indirect costs that were charged to an NSF award.
    •   $2,263 in unallowable technology infrastructure fees (TIFs) charged to NSF awards.

Exhibit A of this report provides a breakdown of the questioned costs by finding. We
summarized UCLA’s responses to each finding in the appropriate sections of the report.
Appendix B of this report includes UCLA’s response to the findings in its entirety.

Finding 1: Overcharged Summer Salaries

UCLA overcharged NSF awards by more than $2 million for summer salaries and related
benefits and indirect costs. UCLA’s methodology for reimbursing employees and charging
awards for work performed during its summer quarters resulted in the university charging costs
that exceeded the proportionate share of an employee’s salary and/or their base monthly salary
amount. This methodology is also inconsistent with how employees’ salaries are reimbursed and
charged to awards during the academic year.

With regard to salary rates for faculty members during the academic year, 2 Code of Federal
Regulations (CFR) 220 (formerly Office of Management and Budget Circular A-21), Cost
Principles for Educational Institutions, Appendix A, Section J.10 states the following:

        In no event will charges to sponsored agreements, irrespective of the basis of
        computation, exceed the proportionate share of the base salary for that period. This
        principle applies to all members of the faculty at an institution.

It further states:

         …charges for work performed by faculty members on sponsored agreements during the
        summer months or other period not included in the base salary period will be determined
        for each faculty member at a rate not in excess of the base salary divided by the period to
        which the base salary relates, and will be limited to charges made in accordance with
        other parts of this section. The base salary period used in computing charges for work
        performed during the summer months will be the number of months covered by the
        faculty member’s official academic year appointment.

The NSF Proposal and Award Policies and Procedures Guide, Part II: Award & Administration
Guide (effective January 5, 2009), Chapter V: Allowability of Costs, Section B.1.a. (ii) (a) states,
“Salary is to be paid at a monthly rate not in excess of the base salary divided by the number of
months in the period for which the base salary is paid.”

According to UCLA policy, eligible academic-year appointees are allowed to earn a maximum
of one-third of their nine-month annual salary rate as additional compensation for services
performed during the summer period. The University of California Guidelines for Payment of



                                                                                             Page | 2
Additional Compensation to Academic-Year Appointees During the Summer, Appendix 1 of the
Salruy Administration Guide, APM-600, states:




Based on UCLA's methodology as described above, employees that plan on working exactly one
month of the summer properly allocate one month of their summer salruy to a sponsored project,
regru·dless of the number of days in that month. However, for those individuals whose service
period length is indeterminate or is greater than one month, the runount of compensation erun ed
as additional summer salruy is overstated. The calculation of the summer salruy payment for
these individuals is based on a - summer month, rather than on the actual number of
working days during the month.

Based on this policy, as well as our review of summer salru·ies, we detennined that for most
individuals, the percentage of effort chru·ged to an NSF awru·d as additional summer salruy was
allocated based on a daily rate calculated using a-       work month. As each summer month in
fiscal years 2009, 2010, and 2011 had more thanii\Vofking days, this methodology resulted in
inflated eff01i percentages. This led to UCLA overstating most of the additional summer salruy
compensation chru·ged to NSF awards during the audit period.

For example, July 2010 had 22 working days; therefore, using a daily rate based o~
month caused effort allocations to be inflated.
   •   If an employee planned on working 9.5 days in July 2010:
           o   Using a Daily Rate:                                   would be allocated to the
               grant in July.
           o   Using a Monthly Rate:                                     would be allocated to
               the grant in July.
   •   If an employee planned on working-          in July 2010:
           o   Using a Daily Rate:                                    would be allocated to the
               grant in July.
           o   Using a Monthly Rate:                                    would be allocated to
               the grant in July.



                                                                                         Page 13
   •   If an employee planned on                    in July 2010:
             o   Using a Daily Rate: 116 percent of their salruy -     would be allocated to the
                 grant in July.
             o   Using a Monthly Rate: 100 percent of their salruy-        would be allocated to
                 the grant in July.

We can see from this example that all instances in which the percentage of effort chru·ged to a
grant was calculated using a daily rate instead of a monthly rate resulted in an overstatement of
eff01i . The monthly rate is only used when an employee works exactly one month in the summer;
therefore, all instances in which an employee worked for more than one month in the summer, or
allocated greater than or less than 100 percent of their monthly salruy to a grant, would have
been calculated based on a daily rate. This led to UCLA overstating the prop01tion of the
employee's base salruy that was allocable to the grant. Using the daily rate resulted in inflated
salaty allocations as follows:




                                                      June 2009, September 2009, June-
         I               I             13.64%         August 2010, September 2010, Jlme
                                                            2011            2011


Over the audit period, II  employees allocated less than 100 percent of their monthly effort in
one or more summer months to an NSF award, which indicates that their eff01t was based on a
daily rate that assumed a - y month. We also noted thatl individuals that received multiple
summer salruy payments dming the fiscal yeru· allocated exactly 100 percent of their eff01i to an
NSF awru·d dming one or more of the summer months. Based on UCLA policy, unless the
employee only works one month in the summer, a 1O~~ercent allocation of summer salary
would only occm when an employee works a total of days, rather than the actual number of
working days in the month. This discrepancy in the number of days indicates that the eff01i for
each of these individuals was also overstated, as shown in the table below.




                                                                                          Page 14
Daily Time Factors for Payment Calculations Based on One-Month Annual Salary Rate for
                    Summer Service for Academic Year Appointees:




The NSF Proposal and Award Policies and Procedures Guide, Part II: Award & Administration
Guide, Chapter V: Allowability of Costs, Section B.1.a. (ii) (a) prohibits salaty payments that
exceed the amount of the base salaty divided by the number of months in the period for which
the base salaty is paid. However, as seen in the UCLA table above, the use of a daily rate can
result in an employee receiving more than 100 percent of their monthly salruy if they work more
-             during the month . As a result of our testing, we found that. employees received
~00 percent of their monthly salary as an additional summer :Truy payment for one or
more months during our audit period.

According to 2 Code of Federal Regulations (CFR) 220, Cost Principles for Educational
Institutions , Appendix A, Section C.2, Factors affecting allowability ofcosts:

       The tests ofallowability of costs under these principles are: they must be reasonable;
       they must be allocable to sponsored agreements under the principles and methods
       provided herein; they must be given consistent treatment through application of those
       generally accepted accounting principles appropriate to the circumstances; and they
       must conform to any limitations or exclusions set forth in these principles or in the
       sponsored agreement as to types or amounts of cost items.

Using a l-day summer month as the basis for determining the percentage of time each faculty
member spent working on grant-related activities is inconsistent with how salaty costs are
chru·ged during the academic yeru·. It also caused UCLA to overstate the amount of salaty that
should have been allocated to the grant during the summer period. If the calculation of effort for
all employees had been based on the actual number of working days in a patticular month, rather
than on an estimatedl-day summer month, the total ammmt of summer salruy charged to NSF
awards would have been significantly lower. We ru·e therefore questioning all surmner salruy
amounts greater than 100 percent of an employee 's monthly salaty , as well as the salaty
associated with the overchru·ged eff01t percentages for all employees that did not spend exactly
                    working on an NSF award.




                                                                                           Page IS
Recommendations

We recommend that NSF 's Director of the Division oflnstitution and Award Supp01i address
and resolve the following recommendations that UCLA:

    1. Repay NSF the $2,111,653 of questioned costs.

   2. Su·engthen the adminisu·ative and management controls and processes over summer
       salaries being charged to its federal awards. Processes could include:
           a. Revising UCLA's policies and procedmes regarding the salruy and wage costs it
              chru·ges to its NSF awru·ds so that these policies and procedmes comply with
              federal and NSF award requirements.
           b. Revising UCLA's policies and procedmes for calculating eff01i dming the
              summer months so that the percentage of monthly eff01i chru·ged to a grant is
              calculated using the same methodology that the university employs dming the
              regulru· academic yeru·.



                                                           lmiversity            Its          yeru·
compensatiOn                 use a          period of service of one quruier/tenn and define that
period as containing a baseline ofllervice days. For consistency, the summe~eriod is
designed to replicate the academic year service periods, which means that any . working days
within the summer service period may be claimed for fu~ensation, regardless of
the number of days in the month. UCLA stated that the -                     is only intended to
ensme that faculty summer service is accmately compensated and recorded over the service
period, and as such it is not con ect to draw comparisons between employees compensated
monthly or daily and academics compensated for summer service.

Auditors' Additional Comments: Om position regru·ding the finding does not change. As noted
above, the methodology for reimbmsing employees and chru·ging awru·ds for work performed
dming the summer quruiers resulted in the university chru·ging costs that exceeded the
prop01iionate share of an emp~nd/or their base monthly salruy amount. While the
university stated that it uses a - period for consistency with academic year
compensation, it is cleru· from the documentation provided that the methodology used to allocate



                                                                                             Page 16
summer compensation is inconsistent with how employees' salaries are reimbursed and charged
to awards during the academic year .

Finding 2: Unsupported Per Diem Costs

UCLA charged NSF awards for per diem costs for trips taken by Pis; however, these costs were
not supported by receipts or other documentation. UCLA did not follow the University of
Califomia's established policy for per diem limitations on long-te1m foreign travel.

According to 2 CFR 220 Appendix A, Section J.53, costs incuned by employees and officers for
travel, including costs of lodging, other subsistence, and incidental expenses, shall be considered
reasonable and allowable only to the extent such costs do not exceed charges normally allowed
by the institution in its regular operations as the result of the institution's written travel policy.

The University of Califomia Business and Finance Bulletin Number G-28, Policy and
Regulations Governing Travel, Section VIII.B.2.b, Foreign Travel, states:

       Long-Term Travel- Assignments of30 Days or More
        The per diem allowance authorized f or long-term travel is up to 100% ofthe applicable
       federal per diem rate (see Appendix B). The traveler is expected to seek long-term
       accommodations when staying in one location for 30 or more consecutive days but less
       than one year. See Section VIII.B.J.b, Long-Term Travel - Assignments of 30 Days or
       More, above, for information on estimating and computing a daily lodging rate.

In addition, Section VIII.B.l.b states:



                                                                                    occupancy
       in                                g recurring expenses may considered p art of the
       lodging cost when a traveler rents a room, apartment, house, or other lodging on a long-
       term basis:
           • Rental cost of a furnished dwelling,·
           • Utilities,·
           • Monthly base telephone charges.

UCLA representatives stated that despite the University of Califomia's travel
Travel Accmmting Office 's standard procedure is to reimburse
per diem rate. Travelers are instm cted to personally maintain expense                        are not
required to provide receipts for reimbursement lmless the traveler wishes to claim actual costs
that exceed the per diem rate. The representatives fmi her stated that the University of Califomia
Business and Finance Bulletin No. G-28, Section II, Definitions, states that payment of per diem
                                      and that per diem is authorized for all foreign travel.

We identified the following long-te1m foreign trips:

   •   NSF Award No. 0601082. The                                    traveled to Paris, France from
       July 12 through August 28, 201                               the grant $16,41 9 for - of


                                                                                               Page 17
       per diem at the Paris rate. We were llllable to obtain supp01i for actual lodging or
       subsistence costs, or for the calculation of a daily expense rate.

   •   NSF Award No. 1007227. On two occasions,.               traveled to Jemsalem, Israel to
       collaborate with other researchers in the mathematics depruiment at the Hebrew
       University. The first · was from J        1 through September 27, 2011 , and the employee
       chru·ged the                            of per diem at the Jemsalem rate. The second trip
       was from F                            10, 2012, and the employee chru·ged the grant
       - forl ldays per                  at    Jemsalem rate. We were llllable to obtain supp01i
       for actual lodging or subsistence costs, or for the calculation of a daily expense rate for
       either of these trips.

The intent of the University of Califomia travel policy is to require travelers to seek long-te1m
accommodations in order to reduce travel costs. UCLA failed to obtain supp01iing
documentation for long-te1m travel or to calculate daily expense rates. Accordingly, we ru·e
questioning the following costs:




Recommendations

We recommend that NSF 's Director of the Division oflnstitution and Award Supp01i address
and resolve the following recommendations that UCLA:

    1. Repay NSF the $131 ,139 of questioned costs.

   2. Strengthen the administrative and management controls and processes over long-tenn
      foreign travel costs chru·ged to its federal awards. Processes could include:
           a. Developing monitoring and detective controls to ensure that employees ru·e
              adhering to, and ru·e in compliance with, UCLA 's own system of policies and
              procedures, specifically those procedures related to ensuring that the university
              receives and maintains supp01iing documentation for all long-te1m travel
              reimbursement requests.
           b. Reviewing UCLA's policies and procedures, including perfonning periodic
              reviews of individual depa1iments and divisions for compliance with, and proper
              implementation of, established cost controls, as well as to ensure that costs
              claimed on NSF awards relate to that specific award, ru·e within the awru·d budget,
              and ru·e inclmed during the awru·d period.



                                                                                              Page 18
University of California, Los Angeles Response: UCLA stated that it does not believe these
costs should be repaid, and that it followed University of California policy regarding the
~to foreign u·avel per diem. The university stated that u·avelers are told to
-                         of the per diem rate, with the understanding that they will adjust the
rate down ifless is spent The ·         · also noted that the University of California's policy for
long-te1m u·avel anangements                               that an employee is "expected" to seek
long-te1m accommodations during                                 , this is not required.

Auditors' Additional Comments: Our position regarding the finding does not change. While
UCLA did note that the policy uses the te1m "expected" rather than "required," we noted that the
same      · states that the    diem allowance authorized for              u·avel is up to  Ill
    rate                 spent
                                                                           that they
                                                                     spent more than
                                                                                      ,-u.ad ·ust
                                                                                               in
each location but did not submit any documentation supporting the expenses incune urmg the
u·avel or explaining why they claimed the full per diem rate rather than adjusting it per lmiversity
policy.

Finding 3: Unallowable Visa Application Fees

Over $73,000 in expenses related to visa application fees was inappropriately allocated to NSF
grants. While UCLA policy does allow visa application costs to be charged to federally
sponsored projects, we detennined that UCLA does not always follow either its own internal
policies or federal mles and regulations when allocating these fees to NSF grants.

On October 24, 2006, UCLA's Office of the Vice Chancellor for Research published a memo
regarding charging visa application fees, legal fees associated with those applications, and
internal visa       ·             to conu·acts and          The memo states       unless


v1sa costs                        are               same              as
such, if an employee 's effort is devoted entirely to one project, all costs can be charged to that
project However, if eff01i will be spread across multiple projects, costs should be disu·ibuted
across those projects in prop01iion to the eff01i.

According to 2 CFR 220 Appendix A, Section C.4.d(3), "If a cost benefits two or more projects
or activities in proportions that can be dete1mined without lmdue effort or cost, the cost should
be allocated to the projects based on the prop01iional benefit"

To dete1mine compliance with these policies, we examined the amount of eff01i each employee
certified expending on the sponsored grant to which their visa application fee was allocated.
Through our review of supporting documentation, we detennined that the allocation of visa fees
for each sampled u·ansaction violated one or more of the policies enacted by this memo.

We sam~sactions charged to five NSF awards. These transactions were related to visa
fees for - employees. In each sampled u·ansaction, the visa application fees were



                                                                                               Page 19
allocated to only one grant, even though the fees incuned were for employees that were not
devoted entirely to one project.




1
 NSF Award No. 0531621 was related to the renewal ofthe Basic Plasma~                      funded
by the Department ofEnergy (DOE). Employees No. 5 and 6 attc?carea                         of their
respective effort to the associated DOE grant during the effective

In addition to visa fees not being allocated based on the employee 's eff01t, visa fees for long-
tenn employees were improperly allocated to the grant. The UCLA visa application memo states
that visa application fees are typically classified as relocation costs, which are allowable under
federal regulations. According to 2 CFR 220 Appendix A, Section J.42.a, "relocation costs
incuned incident to recmitment of new employees are allowable to the extent that such costs are
incuned pursuant to a well-managed recmitment program."

While 2 CFR 220 allows for relocation costs incuned for the recmitment of new employees,
each of the sample employees was hired well before the university incurred the visa application
expenses for these individuals. UCLA hired these six employees to fill positions that were not
specific to an NSF award, and their relocation costs would therefore not be allocable to the NSF
award regardless.




                                                                                          Page 110
As a result of om testing, we also detennined that the hiring process used for at least one of the
sampled employees violated requirements set f01i h in the visa application fee memo. The
October 24 memo states that a thorough justification is necessruy when hiring someone for
whom relocation and immigration expenses are necessary, rather than someone who is ah'eady
legally qualified to work in the United States. The documentation provided to supp01i the hiring
of Employee No.5 contained an Academic Recmitment-Selection Data and Compliance Form as
support. This f01m indicated that a seru·ch for other eligible employees was not appropriate
because the position was for an individual who had a fellowship, was on sabbatical leave, or was
receiving their ftmding from a grant or award. While this f01m was not provided for other
individuals, it indicates that if employees ru·e hired specifically to work on a grant, the n01mal
hiring seru·ch procedmes can be waived. As the visa application memo requires that the
university complete a thorough seru·ch of all eligible U.S . employees in order for visa application
fees to be allowable, all fees for employees hired under this methodology would be lmallowable.

                                                                                     memo, the
                                                            F01m               m mconsistent
treatment                                                    sponsored by non-lmiversity ftmding.
According to 2 CFR 220 Appendix A, Section C.3, Reasonable Costs, a cost may be considered
reasonable to " ... the extent to which the actions taken with respect to the incunence of the cost
ru·e consistent with established institutional policies and practices applicable to the work of the
instiiliiitution
             enerall , including sponsored agreements." The                        ·    shows that
the                     of an employee, and by extension the
emp oyee, IS m uenced by whether the employee will be
~indicates that the hiring process
- h a n with-ftmds, it violates                                                             a cost is
only considered reasonable if it is consistently treated, indetetminate of the ftmding somce.

Each sampled transaction related to visa fees violated one or more of the policies established by
UCLA, in addition to violating federal and NSF policies and procedmes. Th~'s
allocation methods were not in compliance with established policies, and its -               fonn
indicates that UCLA allows employees to be hired without perf01ming a thorough seru·ch of
eligible U.S. citizens, even though such a seru·ch is required for visa fees to be allowable. As
UCLA does not apperu· to have established policies and procedmes that ensme the allowability of
all visa application expenses charged to NSF awru·ds, we ru·e questioning all costs associated with
visa application fees that were chru·ged to NSF awru·ds dming om audit period.

As visa fees under- ru·e         ~· ·   ll          d   'h    •                     r   !   which are
allowable, we only questioned

Om fmdings ru·e as follows:

    •   We noted that dming om audit period,    Itransactions related to visa applications were
        charged to NSF awru·ds under object code 3545, Visa Application- Outside Legal Services
        Fee, as follows:




                                                                                               Page I ll
                 0527015

                 0501720




                -
                 1027494

                 0802843

                 0809832

                 0531621

                 1040868

                 0904039

                  Total

•   We also noted that three transactions related to visa applications were charged to NSF
    awards llllder object code 3399, Costs ofLegal Proceedings:




•   Finally, we noted one transaction booked to object code 7223, Hospital Legal Fee, that
    was related to a premium processing fee incuned to expedite the visa fee application
    process in order to avoid a gap in employment for Employee No.2. The visa application
    fee memo states that regular visa application costs can be charged to grant-supported
    projects as direct costs, but that expedited visa application costs cannot. This expense is
    therefore llllallowable. We questioned these fees and the related indirect costs as follows:




                                                                                        Page 112
                NSF Award         Transaction       Estimated IDC       Questioned




                 -                                                           -
                 Number            Amount              Applied            Costs


                    Total                                                    $1 540

Recommendations

We recommend that NSF 's Director of the Division oflnstitution and Award Supp01i address
and resolve the following recommendations that UCLA:

    1. Repay NSF the $73,135 of questioned costs.

   2. Su·engthen the adminisu·ative and management controls and processes over the way in
      which costs incuned for visa application fees are allocated to its federal awards.
      Processes could include:
           a. Implementing new policies and procedures to ensure that visa application fees
              related to individuals that are cmTently employed by the university are not directly
              allocated to federal grants.
           b. Editing cunent policies and procedures to ensure that the same hiring process is
              used for all personnel, regardless of the source of salruy funding.
           c. Developing monitoring and detective conu·ols to ensure that employees ru·e
              adhering to, and ru·e in compliance with, UCLA 's own system of policies and
              procedures. UCLA's policies and procedures require visa application fees
              incuned to be allocated to fimding sources based on the employee's eff01i for the
              period in which the fee was incmTed.

University of California, Los Angeles Response: UCLA agreed to the questioned costs of
$73 ,135 and acknowledged that its cmTent visa fee guidance should be revised. UCLA agreed
that immigration visa costs and related legal fees should have been distributed across projects in
prop01iion to each employee's eff01i. UCLA also noted calculation en ors in the "%of Effort
Allocated to the Grant in Month ofExpense" and "% of Effort Allocated to the Grant During the
Effective Grant Period" columns in the table above, and stated that the "%ofEffort Allocated to
the Grant in the Month ofthe Expense" colmnn is not relevant, and the "% of Effort Allocated to
the Grant During the Effective Grant Period" colmnn is lmderstated.

Auditors' Additional Comments: We con ected the calculation enors identified by UCLA
personnel. We noted that these calculation en ors were not significant and did not change our
position regru·ding this finding .

Finding 4: Unreasonable Equipment Purchases Made at the End of the Grant Period

UCLA purchased computer equipment totaling $10,289 and chru·ged it to NSF awru·ds within the
final 23 days of the grant periods. These purchases were not available for use during m ost of the



                                                                                          Page 113
award periods; therefore, they were not necessary for accomplishing the award objectives and
did not benefit the NSF programs.

According to 2 CFR 220 Appendix A, Section C, to be allowable for a federal grant, a cost must
be allocable to the federal award and must be necessary and reasonable for the administration
and performance of the award. 2 CFR 215 also requires that a federal award recipient’s financial
management system maintain “effective control over and accountability of all funds, property
and other assets.”

The NSF Proposal and Award Policies and Procedures Guide, Part II: Award & Administration
Guide, Chapter V: Allowability of Costs reiterates that unallowable costs, such as meals and
entertainment, pre-award costs, general-purpose equipment, and other unnecessary and
unreasonable costs, should not be charged to NSF awards.

NSF Award No. 0833375, titled “Phylogeography of Capuchins, Squirrel Monkeys and Owl
Monkeys: A Critical Comparative Framework for Studying Evolution, Behavioral Ecology, and
Conservation in Neotropical Primates,” had an effective period of 4 years, beginning April 1,
2008, and expiring on March 31, 2012. An invoice dated March 8, 2012 (23 days before the
grant’s expiration date) details the purchase of an              computer that was charged to this
NSF award. The PI stated that this purchase was necessary despite being at the end of the grant
period because the computer they were using to store data and write articles was acting
erratically. The PI provided additional justification that claimed that without this computer, the
PI would not have been able to organize or prepare for the Comparative Biogeography for
Neotropical Primates conference in Cancun, Mexico, or prepare for a roundtable discussion of
the implications of their research. We noted, however, that both of these meetings took place
after the grant period. As this grant had an effective period of 4 years and the equipment
purchase was not made until the final month of the grant, we believe that the expense was
unreasonably allocated to the NSF award.

NSF Award No. 0553571, titled “Heat Transfer in Fluids at Near-Critical Pressures: Experiments
and Mathematical Modeling,” had an effective period of 4 years, beginning September 15, 2006,
and expiring August 31, 2010. On August 23, 2010 (7 days before the grant period expired), the
PI ordered a                 Computing Processor and associated components, subsequently
charging the purchase to the grant. The PI stated that the purchase of the computer equipment
was necessary to convert their serial machines to parallel machines, which significantly
decreased the amount of time required to run Computational Fluid Dynamic (CFD) simulations.
As this grant had an effective period of 4 years and the computer was not purchased until 7 days
before the grant expired, we believe that the expense was unreasonably allocated to the award.

NSF Award No. 0707055, titled “From Information Scaling to Regimes of Statistical Models of
Natural Image Patterns,” had an effective period of 3.5 years, beginning July 1, 2007, and
expiring December 31, 2010. On December 21, 2010 (10 days before the grant expired), the PI
ordered a             Computer and subsequently charged the purchase to the grant. The
purchase order stated that this computer was to be used by the PI and his research assistants for
various research experiments and data-gathering. The PI provided additional justification, stating
that they had purchased the computer because his team required a more powerful computer with



                                                                                          Page | 14
GPU for working on developing generative models for natural images. As the computer was not
purchased lmtil 10 days before the grant expired, we believe that the expense was lmreasonably
allocated to the awar d.

We questioned the unreasonable equipment costs and the related indirect costs as shown below:




1
 While these expenses were charged to an equipment account, the purchases did not exceed the $5,000
equipment threshold established by NSF, and the university therefore applied indirect costs.

Recommendations

We recommend that NSF 's Director of the Division oflnstitution an d Awar d Supp01i addr ess
and resolve th e following recommendations that UCLA:

    1. Repay NSF the $15,700 of questioned costs.

    2. Su·engthen th e adminisu·ative an d management controls and processes over char ging
       equipment to federal grants within the final90 days of the grant's period ofperfonnance.
       Processes could include implementing policies and procedures to ensure that all
       equipment purchased and charged to a federal grant within the final90 days of the grant 's
       period of perf01mance are reviewed for allowability, allocability, and reasonableness in
       ten ns of the grant awar d 's purpose.

University of C alifornia, Los Angeles Response: UCLA agreed to increase its campus training
eff01is an d to consider implementing additional controls to highlight equipment purchases made
in the last 90 days of a federal awar d; however, it stated th at th e purchases made were
reasonable, allowable, and allocable to th eir respective projects. The lmiversity provided
additional responses from the Pis of each grant for which we questioned equipment purchases.
Each of these responses included a justification for the necessity of the equipment and the timing
of the purchase.

Auditors' Additional Comments: Our position regar ding the finding does not change. We do
not believe th at any of the responses provided by the university justify the purchase of computers
with less than 23 days left in the grant's period of performance. As previously mentioned, these
computers were not available for use during most of the award periods; we therefore do not
believe that the allocation of the expenses incmTed to purchase these computers at the end of the
grant period is appropriate.



                                                                                             Page l iS
Finding 5: Unreasonable Salary Expense Charged to an Award

UCLA unreasonably charged salary expense to NSF Award No. 0713903 for a retroactive
payment for the August 2010 pay period. In June 2011, 2 months before the expiration date of
the award, the PI of this award requested, and received, an additional summer salary payment
related to work performed in August 2010.

According to 2 CFR 220 Appendix A, SectionC.4.b, costs cannot be shifted to other grants to
meet deficiencies caused by overruns or for other reasons of convenience. Additionally, 2 CFR
220 Appendix A, Section J.10 states that activity reports must reflect the distribution of activity
expended by employees covered by the system, and that these reports must reasonably reflect the
activities for which employees are compensated by the institution.

The payroll subledger indicates that this employee did not receive any salary payments during
the month of August 2010. However, in June 2011,           months before the grant period expired,
the PI received a salary payment of           for the pay period ending August 31, 2010. This
payment was allocated to NSF Award No. 0713903. When we requested a justification for the
timing of this effort allocation, UCLA representatives originally stated that the PI wanted to
ensure that sufficient funds were available to cover other research expenses prior to receiving
compensation. However, UCLA representatives later stated that they believed there was a
translation issue involved with the PI’s original justification for the timing of this expense. They
stated that the PI had not originally charged this time to the grant because he was not sure he was
going to finish the project he had been working on before the grant expired. The PI stated, “If the
additional task were not completed before the end of the project, it would not make sense to
claim this effort through this project.”

The University of California Office of the President Contract and Grant Manual, Chapter 7:
Budget and Expenditures, Section 7-330: Effort Certification and Reporting System, requires
those employees that are committed to work on federal contracts to certify the amount of their
total work effort that is applicable to sponsored research. The policy requires this sponsored
research effort to be certified on an after-the-fact basis, within 120 days of the end of the
reporting period. While the PI was retroactively paid in June 2011 for effort performed in August
2010, the effort report certifying this allocation of activity was not certified until July 5, 2013,
after we inquired about the transaction. As the original effort report for summer 2010 did not
indicate that the PI spent any time on sponsored projects, it did not need to be certified. When
UCLA allocated salary related to the pay period ending August 31, 2010, to the NSF grant in
summer 2011, no procedures were in place that required the retroactive certification of the
updated summer 2010 effort report.

It is clear that the            to retroactively request payment either was based on the fact that
funds were available at the end of the grant period, or was related to an unidentified “additional
task” that would not have been compensated by the university if NSF funding had not been
available. We questioned the unreasonable salary costs and the related indirect costs as shown
below:




                                                                                           Page | 16
Recommendations

We recommend that NSF 's Director of the Division oflnstitution and Award Supp01i address
and resolve the following recommendations that UCLA:

     1. Repay NSF the $15,186 of questioned costs.

    2. Su·engthen the adminisu·ative and management controls and processes over its federal
       awards. Processes could include establishing policies and procedm es that prohibit
       employees from receiving additional compensation for previous time periods.

University of California, Los Angeles R esponse: UCLA contended that the salruy expense is
reasonable and therefore did not agree that the costs should be questioned or repaid. UCLA did,
however, agree that the payment and eff01i ce1i ification should have been completed in a timely
manner, and stated that it will consider su·engthening the adminisu·ative and management
conu·ols relating to this type of u·ansaction. UCLA stated that while the summer salruy payment
was charged to the NSF grant late in the awru·d period, it was not related to "cost shifting," and
that the cost was appropriate, as the approved budget for NSF Grant No.-             included
yearly -            compensation dming the award period. UCLA also provided a response from
the PI detailing the work perf01med dming the period and stated that it had not notified NSF
about the additional task "since no additional fimding supp01i was requested." The university's
response also included the PI's statement that "If the additional task was not completed before
the end of the project, it would not make sense to claim this eff01i through this project."

                                                    ..,v,.......... regru·ding the finding does not change. As the PI
stated in the justification for                                salruy, the task perfon ned dming August 2010
was an additional task that was not .....-... .... ....        · the                             and NSF had




Finding 6: Unallocable Domestic Travel

A PI chru·ged expenses totaling -       to NSF Award No. -         for a u·ip that was not
planned or budgeted and was not necessruy to accomplish the goals of the project. The PI, along
with a reseru·ch team, u·aveled to Maine in August 2010. Expenses included.        for taxis, gas,



                                                                                                           Page 117
and tolls; -   for food;.    for tools and hardware; and -          for cabin rentals for one
week in Howland, ME, and one week in Passadumkeag, ME.

NSF Award No. 06241 77 had an effective period from November 15, 2006, to October 31, 2010.
The project was intended to focus on the Los Angeles Million Tree Initiative, a multi-agency
tree-planting program. Specifically, the research was planned to integrate measuring and
modeling the potential impacts of a large-scale u·ee-planting program on urban greenhouse gas
mitigation and local climate. The proposal indicated that the PI had been awarded supp01i for
other projects from NASA, but did not include plans to collaborate with NASA for this project.
Additionally, the proposal did not include plans to collaborate with other lmiversities or to
analyze data pe1i aining to cities other than Los Angeles.

We requested justification for the u·ip. The response from the PI included the following:

       The project had several elements including: 1. Social science (led by~,
       ecosystem measurements and modeling (lead by-                  at      remote sensing and
       spatial analysis (lead by myself), and economic analysis (lead by                 at UCI).
       The remote sensing effort included the use of satellite and airborne       over
       Angeles County and/or other urban forest environment to quantify, compare and validate
       the role of trees in mitigating the urban heat island effects and other ecosystem services
       such as increasing water use efficiency and air pollution reduction.

                                                       our activities were centered around
                                                                         over the city ofLos


       During the third year of the project we had an opportunity to receive-
       -    sensors developed forforestly application, particularly urban~

       Participation in the NASA campaign allowed us to have free training f or students, free
        access to the data, andfield measurements funded by the NASA program. The students
        met several other groups from University of Maryland, University ofMaine, University of
       Massachusetts, US Forest Service scientists, and NASA scientists all interested in the
       same research questions. Participation in the NASA field campaign also allowed us to
        request data over Los Angeles county during future NASA campaigns over the western
       states. Currently, we are in the process ofpublishing the data we received subsequently
       from NASA sensors over Los Angeles and to improve the research products developed
        during the NSF grant.

       As a PI and research advisor to UCLA studen




We requested supp01i for the invitation from NASA for the students to pruiicipate in the data
collection. The PI indicated that supp01i could not be provided because the agreement with



                                                                                            Page 118
NASA was not formally documented; rather, it was based on the PI’s participation in a team
meeting that allowed the research team to collect data for two years (2009 and 2010).

The final project report was dated October 2010, only two months after the trip to Maine. The
report presented the results of the research and did not include any mention of collaboration with
NASA or other universities on the project.

According to 2 CFR 220 Appendix A, Section C.4, a cost is allocable to a sponsored agreement
if it is incurred solely to advance the work under that sponsored agreement. The cost must be
assignable to a specific cost objective of the sponsored agreement.

The purpose of the trip was outside the scope of the NSF award and appears to be related to the
PI’s other research projects. We are questioning $6,104 in total costs, including      of
expenses charged for the trip and         of associated indirect costs.

Recommendations

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendations that UCLA:

   1. Repay NSF the $6,104 of questioned costs.

   2. Strengthen the administrative and management controls and processes over allocating
      travel expenses incurred by PIs with multiple federal awards. Processes could include:
           a. Developing and implementing procedures to ensure that all travel charges
              allocated to federal grants have been reviewed and are certified as relating solely
              to the federal grant to which the travel is being charged.
           b. Reviewing UCLA’s policies and procedures, including performing periodic
              reviews of individual departments and divisions for compliance with, and proper
              implementation of, established cost controls, as well as to ensure that costs
              claimed on NSF awards relate to that specific award, are within the award budget,
              and are incurred during the award period.

University of California, Los Angeles Response: UCLA contended that the PI’s responses
provide support that travel taken was relevant and allocable to the project, and that the costs
should therefore not be questioned or repaid. The university also stated that this NSF grant was
awarded under the Federal Demonstration Project (FDP) Terms and Conditions, which allowed
the PI to re-budget. The university’s response included two statements provided by the PI, which
were not included in the initial draft report, to provide support that the trip was within the scope
of the award.

Auditors’ Additional Comments: Our position regarding the finding does not change. As
previously stated, we believe that the purpose of the trip was outside the scope of the NSF award
and that it appears to be related to the PI’s other research projects. We also noted that while FDP
allows re-budgeting among budget categories, it requires NSF approval for a change in the scope



                                                                                           Page | 19
of the project, and it does not preclude the university from having to demonstrate that the cost is
reasonable, allocable, and allowable.

Finding 7: Unallowable Application of Indirect Expenses

UCLA transfen ed-           ofpruticipant supp01t costs that were originally chru·ged to NSF
Awru·d No. 0739289 to NSF Awru·d No. 0643318. UCLA did not transfer these expenses to
pruticipant supp01t cost accmmts, however, and indirect expenses were en oneously applied to
the costs and charged to NSF Award No. 0643318.

The NSF Proposal and Award Policies and Procedures Guide, Part II: Award & Administration
Guidelines (effective Januruy 5, 2009), Chapter V: Allowability of Costs, Section D: Indirect
Costs, Subsection 1.b: Exceptions to Basis Policy states:

       NSF generally provides no amounts for indirect costs for the following:

       (d) [P]articipant support costs. However, an allowance for indirect costs associated with
       participant support costs may be established or negotiated in advance when
       circumstances indicate that the grantee could be expected to incur significant expenses in
       administering participant payments (other than salary or other direct expenses being
       reimbursed under the award) ...

In our initial draft rep01t, we questioned all costs associated with the costs transfen ed to this
grant; however, the university's response to our draft rep01t included an e-mail from an NSF
program official in which the official stated that they verbally granted the PI of the grant
pennission to reallocate the remainder of the fimding to supp01t the conference in question. The
university did, however, acknowledge that the indirect expenses associated with the participant
supp01t costs were inappropriately allocated to the NSF grant.

As the -        of transfen ed expenses related to pruticipant support costs, it was inappropriate
to apply indire~~nses to each of the transfen ed transactions. We questioned all indirect costs
applied to the ~ of conference-related expenses transfen ed to this NSF grant at the end of
the grant period, as follows:

                                                                    Transaction    I Estimated
       Cotton & Company Transaction Description                      Amount          IDC Applied
                                                                I


                                                                                              •

                                                                                           Page 120
Payment to an individual   for patticipating in the " In the
     conference.
Payment to an individual   for patticipating in the " In the
     conference.
Payment to an individual   for participating in the " In the
     conference.
Payment to an individual   for participating in the " In the
     conference.
Payment to an individual   for participating in the " In the
     conference.
Payment to an individual   for participating in the " In the
     conference.



Recommendations

We recommend that NSF 's Director of the Division oflnstitution an d Award Supp01t address
and resolve the following recommendations that UCLA:

    1. Repay NSF the $3,200 of questioned costs.

   2. Strengthen th e administrative an d management controls and processes over the recording
      of patticipant supp01t costs. Processes could include:
           a. Implementing new policies and procedures that requir e a more stringent review of
              all cost transfers related to conference expenses to ensure that the indirect
              expenses m·e not allocated when patticipant supp01t costs m·e transfen ed.
           b. Creating new account codes specifically designed to accumulate participant
              supp01t costs, which would not apply indirect expenses.

University of California Los Angeles Response: In response to the draft rep01t , which
questioned a total of-         related to the costs transfen ed to this NSF awar d at the end of the
grant's period of performance, UCLA provided an e-mail from an NSF program officer stating
that the officer had verbally approved the reallocation of the funding that we had originally
identified as unallowable. UCLA did, however, acknowledge that the costs were transfened fr om
an account that did not assess indirect costs to an account that did assess indirect costs, and
agreed to the questioned indir ect costs related to the conference expenses.

Auditors' Additional Comments: Based on our review of UCLA 's response to the draft rep01t,
as well as the additional documentation provided, we determined that the direct costs transfened
were allocable to the NSF grant. As NSF does not allow the application of indir ect expenses on
patticipant supp01t costs, however, we m·e still questioning the indir ect expenses associated with
th e costs transfen ed to this awm·d.



                                                                                           Page 121
Finding 8: Unallowable Technology Infrastructure Fees

Teclmology Infrastm cture Fees (TIFs) were enoneously charged to NSF Award Nos. 0713 178
and 0924876. The Notice of Award letters for both grants specifically stated that TIFs could not
be claimed as ~itures on the awards, but.          in TIFs were allocated to NSF Award No.
0713 178, a n d - in TIFs were allocated to NSF Award No. 0924876.

Teclmology infrastructure services support the entire UCLA campus, including the UCLA
backbone, Commodity Intemet, BOL Services, and lmdergrmmd inter-building wiring/cabling
and maintenance. UCLA allocates fees for these services, known as TIFs, on a monthly full-time
equivalent (FTE) basis (i.e. , based on how each employee allocates their eff01t each month).
UCLA's TIF Frequently Asked Questions (FAQs) require these TIF charges to be included as a
direct cost in all proposals, but also state that if the TIF charges are identified as an unallowable
expense by the funding agency, the employing organizational unit is required to pay the TIF
charges by utilizing muesu·icted fund sources.

UCLA personnel agreed that these fees were inappropriately allocated to the NSF ~d
provided the following statement in relation to the TIF charged to NSF Award No. -:

        OCGA identified the TIF restriction and called out the restriction on the Award
       Snapshot ... In this case, -     of TIF was incorrectly charged to the award, and EFM
       failed to detect the TIF charges and remove them during the fund closing process. EFM
       has taken corrective action to remove the unallowable TIF charges from this award. The
       award expired in August 2013, and the TIF charges are removed in October 2013 within
       90 days of the award expiration.

We are questioning the unallowable TIF charges and related indirect costs as shown below:




Recommendations

We recommend that NSF 's Director of the Division oflnstitution and Award Supp01t address
and resolve the following recommendations that UCLA:


    1. Provide supp01t to NSF's Director of the Division of Institution and Award Supp01t that
       it has repaid the $2,263 of questioned costs.

   2. Su·engthen the adminisu·ative and management controls and processes over its federal
      awards. Processes could include su·engthening intem al procedures within the exu·amural



                                                                                             Page 122
       fund man agement department to ensure that costs identified as llllallowable cannot be
       allocated to federal grants.

University of California, Los Angeles R esponse: UCLA agreed that the TIFs assessed on NSF
Award Nos. 0713178 and 0924876 were lmallowable, an d agreed to strengthen conu·ols over the
charging of TIFs to federal awards. UCLA specifically noted that its new Post Award
Management System automatically flags all TIF charges for justification or u·ansfer. The
lllliversity also noted that while the auditors only calculated llllallowable TIFs for the period
llllder review, it has removed all TIFs charged to both of these awards.
   •   Award No. 0713178: UCLA will repay NSF the total ammmt ofTIFs charged to the
       award, or                an d related indirect costs of ~).
   •   Award No. 0924876: As indicated in the rep01i, UCLA removed all TIF-related expenses
       (~and related indirect costs) on October 11, 2013.

Auditors' Additional Comments: Because the en ors were not conected lmtil after the audit
period, this finding remains in th e rep01i.

Finding 9: L ate Effort R eport Certifications

UCLA policies and procedures require that UCLA employees provide eff01i ce1iifications within
120 days of th e end of th e rep01ting period. We folllld that for 50 of our 93 sampled salruy
u·ansactions, employees had not ce1iified the effort rep01ts within the specified time period.

According to 2 CFR 220 Appendix A, Section J.1 O.b, salru·ies an d wages charged to NSF awards
must reasonably reflect th e actual labor eff01i that the employee contributed to meeting the
objectives of the awru·d. While a university can initially chru·ge NSF awru·ds based on estimates
of expected labor effort, it is required to subsequently confi1m that the level of eff01i rep01ted
was consistent with the actual eff01i expended. Accordingly, the system must provide for an
after-the-fact confi1mation of employee activity by a responsible person with "suitable means of
verification that the work was perfon ned." The Circulru· also requires that the university provide
for periodic independent intemal evaluations to ensure the system's effectiveness and
complian ce with federal standru·ds.

The University of California Office ofthe President Contract and Grant Manual, Chapter 7,
Section 330 discusses the university's effort ce1iification and rep01ting system, which requires
th ose employees that ru·e committed to work on federal conu·acts to certify the ammmt of their
total work eff01i applicable to sponsored reseru·ch. Sponsored reseru·ch eff01is must be certified
on an after-the-fact basis, within 120 days of the end of the rep01ting period. While each salruy
u·ansaction we tested was supp01ted by a signed eff01i ce1iification, we noted that most were not
signed within 120 days of th e end of th e rep01ting period. We also noted th at th e eff01i reports
provided to support six of the sampled u·ansactions had not been ce1iified lmtil after April15 ,
2013 , when we requested th e supp01ting documentation.

As many Pis have multiple grant awru·ds, as well as many employees for whom they are
responsible, the PI's mem01y of the amollllt and type of activities perf01med will be less reliable
over time. Ce1iifying officials generally rely on these memories when approving reported work


                                                                                            Page 123
activities for themselves and for other individuals who work for them, making it essential that all
effort reports are certified on a timely basis. Based on the documents we reviewed, however,
UCLA personnel only recently certified effort they expended on NSF grants over 3 years ago.

Without procedures in place to verify faculty effort on a timely basis, it is possible that
inaccurate effort reports will be certified. As a result, labor costs could be inappropriately
allocated and charged to NSF grants. Limiting the window for review and certification of effort
reports to the shortest time period possible helps ensure a more reliable certification of labor
costs associated with activities on federal awards.

Recommendations

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve our recommendation that UCLA strengthen the administrative and management
controls and processes over allocating salaries to its federal awards. Processes could include
requiring departments to ensure that effort report certifications are completed within 120 days of
the end of each reporting period, as required by university policies and procedures.

University of California, Los Angeles Response: UCLA agreed to share this finding with
senior management, faculty, and staff to provide additional support for focus on improved
timeliness of certifications.

Auditors’ Additional Comments: Our position regarding the finding does not change.




                                                                                           Page | 24
APPENDIX A: SCHEDULE OF QUESTIONED COSTS BY FINDING




                                                      Page | 25
                                                                                              APPENDIX A




                         N ATIONAL SCIENCE FOUNDATION
                              ORDER# D12PS00465
               PERFORMANCE A UDIT OF COSTS CLAIMED ON NSF AWARDS
                     UNIVERSITY OF CALIFORNIA, Los ANGELES

                        SCHEDULE OF QUESTIONED COSTS BY FINDING




        Overcharged
        Summer
1       Salaries 1
        Unsupp01ted Per
2       Diem Costs
        Unallowable
        Visa Application
3       Fees
        Unreasonable
        Equipment
        Purchases Made
        at the End of the
4       Grant Period
        Unreasonable
        Salaty Expense
        Charged to an
5       Award2
        Unallocable
6       Domestic Travel
        Unallocable
        Conference
7
        Unallowable
        Technology
        Infrastmcture
8       Fees
        Late
        Rep01t
9       Cett ifications - + - -
        Total

    1
    Direct costs consist ofsalaries, as well as the associated benefits and TIFs applied to the overcharged
                                                    salaries.
    2
     Direct costs consist ofsalaries, as well as the associated benefits applied to the unreasonable salary
                                                    e.:'<pense.




                                                                                                   Page 126
APPENDIX B: UNIVERSITY OF CALIFORNIA, LOS ANGELES RESPONSE




                                                             Page | 27
                                                                                                      APPEI'o'DIX B




UCLA AU DIT & ADVISORY SERV I CES

                                                           CONFIDENTIAL
                                                                  I0920 Wi lshire Boulevard, Su ite 700
                                                                  Los Angeles, Californ ia 90024- 1366

                                                                                 Fax: -


May 12,20 14




635 Slaters Lane, 4mFloor
Alexandria, YA 22314


Re:      Response to the Cotton and Company LLP Draft Audit Report of the University of
         California Los Angeles for the National Science Foundation (NSF) Office of Inspector
         General (01G)

Dear -

In ~esponse to your request, the University of California, Los Angeles (UCLA) provides the
following comments to the draft audit report entitled, " Petjornrance Audit of Incurred Costs for
National Science Foundation Awards for the Period July 1, 2009, to June 30, 2012 National
Science Foundation Office ofInspector General."

f inding 1: Overcharged Summer Salaries

The NSF was not overcharged for summer salaries, related benefits and technology infrastructure
fees, and indirect cos ts. UCLA and University o f California (UC) policies and procedures for
calculating and paying summer salary are compliant with 2 CFR Part 220 (formerly OMB Circular
A-21) Appendix A (Principles for Determining Costs Applicable to Grants, Contracts, and Other
Agreements With Educational lnstitllfions) requirements.

There are internal controls to ensure that faculty receive summer compensation only at the
appropriate rates. The summer salary rate is determined by dividing the academic year base salary
(rate) by the number of months covered by the academic year appointment, which is in compliance
with 2 CFR Part 220 Appendix A, Section J.l O.d.(2) and NSF Proposal and Award Policies and
Procedures Guide, Part II, Chapter V, Section B.l .a (ii) (a).

The regulatory guidance provided in 2 CFR Part 220 Appendix A, Section J .1 O.d. (I) does not
define the academic year "continuous period" and states that it is determined by ''the policy of the
institution concerned." UCLA academic year compensation calculations use a baseline period of
                                                                                                    This
is applied consistently throughout the UC system and referenced within compensation policy (APM
                              700 Wil shire Con t<:r • Mailcode 136648




                                                                                                           Page 128
                                                                                                   APPEI'o'DIX B




Response to the Cotton and Company LLP Draft Audit Report ofthe Universily of California, Los
Angeles for the National Science Foundation (NSF) Office of!nspector General (OIG)
May 12, 2014
Page 2


600 series).    The summer service period is not based on calendar months, but runs from
approximately mid-J une through mid-September and, for consistency, is designed to replicate the
academic year service periods. Any lllr working days within the summer service period may be
claimed for full summer compensation, regardless of the number of days within the month. The use
of the c _          table only ensures that faculty summer service is accurately compensated and
recorded over the service period.

It is not correct to draw comparisons between monthly or dail y compensated employees and
summer service compensated academics. It is important to note that while 9 month faculty receive
their negotiated salary in 12 monthly installments; it does not make them monthly compensated
employees. The payroll distribution records and effort reports provided for the audit demonstrated
UCLA's compliance with the two month (UC 2/9) NSF compensation guideline.

UCLA believes that the auditors' conclusion was inappropriately based on the use of a mo, that
focused on the number of days in a month and ignored UC policy which is based on a          day
summer service period. Therefore, UCLA does not believe that the $2,126,9 12 of costs should be
questioned or repaid, and disagrees wi th the recommendations of the auditors.

Finding 2: Unsupported Per Diem Costs

UC Policy was followed regarding the questioned costs related to foreign travel per diem. A
traveler is allowed to claim a per diem for fore ign travel (including long term foreign travel)
without providing receipts. UC Policy G-28 states the following: Per Diem -- the da ily subsistence
allowance authorized under the federal per diem rates for a location of travel. The payment of a
per diem does not require supporting receipts. Per diems are authorized for all foreign
travel; (page 8 ofBFB G-28 effective May 7, 2010).

UCLA' s procedure for paying foreign per diems is consistent with 2 CFR 220 Appendix A, Section
J.53, which states "costs incurred by employees and officers for travel, including costs of lodging,
other subsistence, and incidental expenses, shall be considered reasonable and allowable only to the
extent such costs do not exceed charges normall y allowed by the institution in its regular operations
as the result of the institution's written travel policy." These costs are normally reimbursed by
UCLA regardless of fund ing source and are in compliance with UC policy G-28; therefore, the
federal standard was met.

The auditors have noted .. UCLA representatives stated that despite the University of California' s
travel policy, the UCLA Travel Accounting Oflice's standard procedure is to reimburse all foreign
travel at the maximum per diem rate." This is not accurate. Travelers are told to submit up to
100% of the per diem rate with the understanding that they wi ll adjust the rate down if less is
spent. We can provide examples of when a traveler has adj usted per diems down.

The auditors conclude the following: "The intent of the University of California travel policy is to
require travelers to seek long-tem1 accommodations in order to reduce travel costs. UCLA failed to
obtain supporting documentation for long-term travel or to calculate daily expense
rates. Accordingly, we are questioning the following costs: ... ·•

                              700 Wilsh ire Center • Ma il code 13664 8




                                                                                                         Page 129
                                                                                                APPEI'o'DIX B




Response to the Cotton and Company LLP Draft Audit Report ofthe University ofCalifornia, Los
Angeles for the National Science Foundation (NSF) Office ofInspector General (0/G)
May 12,2014
Page 3


Regarding the calculation of dai ly lodging rates, the policy referenced above states that this is
"expected" with long-tenn travel. However, it is not required. The term "expected" does not
equate to mandatory. Rather, it indicates a best practice. When the travel policy intends to make
something mandatory, it clearly states it with the terms "must" or "required." There are multiple
examples of the terms "must" or "required" being used in UC Policy G-28.

Therefore, UCLA does not believe that these costs should be questioned costs or repaid. UCLA
will review and consider revisions to the current travel policy and monitoring enhancements.

Finding 3 : Unallowable Visa Application Fees

UCLA agrees that immigration visa costs and related legal fees should have been distributed across
projects in proportion to each employee's effort. UCLA noted calculation errors in the "%of Effort
Allocated to the Grant in Month of Expense" and "% of Effort Allocated 10 the Grant During the
Effective Grant Period" depicted in chart I. Additionally, UCLA believes that "% of Effort
Allocated to the Gram in the Month oft he Expense " is not relevant, and the "%of Effort Allocated
lo the Grant During the Effective Gram Period" is understated.

UCLA acknowledges that the "Immigration Visa Applications, the Cost of Ourside Legal
Assistance, and Internal Processing Recharges," guidance (that was updated in 2006) should be
revised. UCLA agrees to the questioned costs of$73, 135.

Finding 4: Unreasonable Eguipment Purchases Made at the End of the Grant Period

While computers were purchased at the end of the award period for each identified project. UCLA
contends that each purchase was reasonable, allowable, and allocable to the respective projects.
rherefore, costs should be deemed reasonable and not questioned or repaid.

      NSF Award No. -             : The PI stated, "The (new) computer was purchased towards the
      end of the granting period because (the computer] I was using to store all the sequence data,
      to write all the articles, and to keep track of all the collaborations &. correspondence
      regarding the grant started acting very erratically and there were several times where I
      couldn ' t get it to turn on. So I purchased the [new] computer, transferred all the grant-
      related data, and I
      with the other sequences from the grant during the last month of the grant." Additionally,
      the PI provided information regarding talks and planned publications directly related to
      work in the last month of the grant period. She also provided support for the two events at
      the l              meetings that were organized and prepared by her, which were included in
      the NSF Final Report. UCLA contends that dissemination of the final project results are
      required by the NSF and provides benefit to the scientific community. This frequently
      occurs after the project period has ended.

      NSF Award No.                     The PI stated, "The NSF experiment also involved
      Computational Fluid Dynamics (CFD) Simulations of the flow. Rmming the CRD
      simulations on serial machines took about 72 hours for each case. Since we had over -
      cases to run, we bought these items to convert our serial machines to parallel machines. The
                            7 00 Wilshire Center • Maitcode 136648




                                                                                                      Page l 30
                                                                                                          APPEI'o'DIX B




Response to the Cotton and Company LLP Draft Audit Report ofthe University of California, Los
Angelesfor the National Science Foundation (NSF) Office of!nspector Genem! (OJG)
May 12, 20 14
Page 4


                                                                           The time taken for each
        case was                                          contends that cutting the case processing
        hours was relevant and necessary to ensure the timely completion of the project.

        NSF Award No                : The PI stated that "At that particular time, we were working on
        developing ~f•liiiiiiill,~-~~111!!1~~~
        funded by NSF. In particular, we were developing a
        • • •model that required                     onte                        learmng process.
        The computation was very heavy and we desperately needed powerfu l computers with GPU.
        That was the reason we bought it. To save the cost, we bought different pieces and
        assembled them by ourselves. That computer we bought was desperately needed and fully
        devoted to th e project funded by the NSF." Addit ionally, this project was competitively
        renewed by NSF from 2010 - 2013. Therefore, the equipment purchased aJ the end of the
        first project period continued to benefit the NSF funded project through the three year
        renewal period.

UCLA will, however, increase its campus training efforts and consider implementing add itional
controls to highlight equipment purchases made in the last 90 days of a federal award.

Finding 5: Unreasonable Salary Expense Charged to an Award

Whi le the sununer salary payment was charged to the NSF grant late in the award period
                         an incident of "cost shifting." The approved budget for NSF Grant
                                   bornotms:atic>n during the award period .

The PI stated, "This summer                                                                               on
producing a high-resolution                               product, which was conducted in summer 2010
but completed in 2011. USGS, in 2009, released the                                          to the scientific
community; and the .                                became freely available. Seeing the need or a high-
resolution •I                  in the scientific community and the high relevance to this project, the PI
decided to use this                                                              in the third year (20 I 0),
which was not in the original proposal. The PI did not notify the NSF project manager with the
additional task since no additional funding                                          ditional task involved
acquiring                                       of                                   and produced a high-
resolution                                    Alaska, containing                                        This
high-reso                                       was released through the project in late 20 I I at
http://data.eol. ucar.edu/codi ac/dss/id~ I 06.346. PI designed the                                and the
QA/QC product, and spent more than •                    f his time on this task. The majority of task was
conducted in summer 20 I0, but the database was not completed unti l May 20 I I , right before the
ending of the project. If the additional task was not completed before the end of the project, it
would not make                     this effort through this project. Thus, the PI requested the additional
                                    the completion of this effort (in June 20 I I) for August 20 I0. This
                   was reported in the final project report."

The UCLA Effort Reporting System (ERS) has always included a procedure for the ceti ification of
updated effort reports. Retroactive transactions that affect a prior reporting period trigger "late pay"
                               700 W i lshire Center • Mailcode 136648




                                                                                                                Page 131
                                                                                                  APPEI'o'DIX B




Response to the Cotton and Company LLP Draft Audit Report ofthe Universily ofCalifornia, Los
Angeles for the National Science Foundation (NSF) Office of Inspector General (OIG)
May 12,2014
Page 5


updates to ERS. The update re-opens the effort report impacted by a late-pay transaction. 1f there
was no report generated for the prior period (as in this case), then the system does not produce an
updated report version.

However, campus units are required to review the ERS, at least monthly, to identify reports that are
uncertified or have not been automatically generated. Staff are trained to create a report manually
when they identify that one is missing and requires recertification. In addition, the Office of
Research                         - Extramural Fund Management (EFM) generates • • • • • •
that identifies              with -              ffort reports. EFM sends reminder notifications to
                   to contact the Pls to have them certit1ed.

UCLA contends that the salary expense is reasonable to the extent that the task was within the scope
of the project and the compensation was included in the approved budget; therefore, does not agree
that the costs should be questioned or repaid. However, UCLA agrees that the payment and effort
certification should have been completed in a timely manner. While this was a very unique
incident, UCLA will consider strengthening the administrative and management controls that relate
to this type of transaction.

Finding 6: Unallocable Conference Expenses

The draft audit report did not include all relevant portions of the statement provided by the campus
unit to justify the cost transfer to NSF Award No. -          The following was also provided:

   •   " With these funds we held a Broadening Participation and Retaining Underutilized
       Populations in Computing Day o n November 9, 2007, at UCLA. This day long event had
       two parts: I) 200 Los Angeles Unified School District high school students and teachers
       came to UCLA and were introduced to a broader image of what computer science is all
       about, hearing presentations from Spelman College Spelbots and computer scientists from
       Broadening the Participation in Computing community, 2) Dr.                  • from Rice
       University give a talk on diversity in computer science and engineering to the students and
       faculty at the UCLA Henry Samueli School of Applied Sciences and Engineering
       (HSSEAS)."

       "This conference supplemented the Computer Science Day with:              _    We were able to
       provide additional professional development for computer science teachers in collaboration
       with the Into the Loop project in order to enhance the goals of this project."

UCLA recently received a written statement from the NSF Program Officer, documenting the
verbal approval she gave the PI to reallocate the funds. The Program Officer stated on April 10,
20 14 : " I have been notified by the PI that UCLA has asked for documentation about funds that
were reallocated under this award [06433 18). The funds were moved from creating a video to
providing additional PD for teachers. I was aware of the difficulties that had been encountered in
producing the video effort and had verball y approved the reallocation of funds. Unfortunately
neither - - - nor I documented that approval." The approval is documented in Attachment
A.


                             700 Wil s hi re Cenler •   Maitcode 1366 48




                                                                                                        Page l 32
                                                                                                      APPEI'o'DIX B




Response to the Colton and Company LLP Draft Audit Report ofthe University of California, Los
Angeles for the National Science Foundation (NSF) Office of Inspector General (O!G)
May 12, 2014
Page 6


UCLA does not agree that the cost transfers occurred solely to expend the balance of funds on the
award, or that UCLA engaged in cost shifting. The PI reallocated the funds to provide additional
professional development (PD) oppottunities for teachers, based on the NSF Program Officer' s
verbal approval. UCLA acknowledges that costs were transferred from an account that did not
assess indirect costs to an account that did assess indirect costs. UCLA agrees only to the
questioned indirect costs related to the conference expenses. UCLA will reaffirm the process for
managing participant. support costs to the campus and consider implementing better cost transfer
controls. Additionally, UCLA will encourage improved documentation of PI and NSF Program
Officer communications.

Finding 7: Unallocable Domestic Travel

The following relevant statements were made by the PI, but were not included in the draft audi t
report:

                                       University of Maine to look at the                           nd the
                              our NSF project. The goal was [to perform) a comparative study of our
              tree prOJeCt data and try to quantify if different climate can impact the effect of trees
       on urban heat island. However, the collaborations at the University of Maine were
       collecting data on the biomass of trees, which was useful for UCLA' s research as the forest
       structure and for tbt:m. It helped to q uantify the tree fuel load for any urban tree fire: hazards
       during the summer."

       "The NSF grant allowed us to address several research questions using intensive data
       gathering analysis over                             utside of the study domain. The NSF final
       report highlights the most signi(icant results and does not necessarily include all the details
       of the project including measurements, lab work, house-hold data gathering, and student
       training and participations. Un fortunately, we did not incl ude the experience gained during
       the field campaign and the subsequent free data                                    in the final
       report. However, this is not unusual. Within each research grant and projects, often, part of
       the data analysis and publications wi ll be done after the grant is completed. The fact that the
       details of {the) trip were not included in the report does not mean it was not important and
       relevant to the project or beneficial to the students who were working on the NSF research
       grant."

The department also noted that this NSF gram was awarded under the Federal Demonstration
Partnership (FDP) Terms and Conditions, which allowed the PI for rebudgeting. UCLA contends
that the explanations provided document the PI' s determination that the travel was relevant and
allocable to the project. Therefore, the costs should not be questioned or repaid. UCLA will
consider enhancing controls over travel charged to federal awards.

Finding 8: Unallowable Technology Infrastructure Fees CTIF)

UCLA agrees that TIF was not allowable on NSF Award Nos.                  md -              The aud itors
calculated unallowab le T IF fees for the period under review only. Therefore, for:

                              700 Wilshire Center • Ma i lco d e 136648




                                                                                                             Page 133
                                                                                                  APPEI'o'DIX B




Response to the Colton and Company LLP Draft Audit Report ofthe University of California, Los
Angeles for the National Science Foundation (NSF) Office ofInspector General (0/G)
May 12, 2014
Page 7


       Award -        : TJF related expenses charged to the award total $ 1,322.9211111••••
       related F&A costs of ~ UCLA will repay the NSF the total amount charged to the
       award.

                          As indicated in the report, UCLA removed all TIF related expenses
                                           ) on October 11, 20 13 . No repayment is due, as the Letter
       of Credit was adjusted to reflect the correction.

UCLA agrees to strengthen controls over the charg ing of TIF to federal awards. UCLA's standard
process identifies grant-specific restrictions on the "Award Snapshot," which is used to
communicate award information to Pis and staff. UCLA's new Post Award Management System
automatically flags all TIF charges lor justification or transfer.

Finding 9: Unallocable Cost Transfer

The vendor invoice for the publication costs was dated October 20, 2009. UCLA informed the
auditors that the invoice was not released for payment until December 20 I 0, due to a vendor code
error which caused the invoice to be placed on the "Hold and Incomplete" list for resolutio n by the
department. Once the department resolved the coding error, the cost was then transferred three
months later to the NSF award as directed by the Pl.

The Basic Plasma Science Facility (BaPSF) is co-funded by the NSF and the Department of Energy
(DoE) under a cooperative agreement. As such, the PI contends that the article related to the
publication costs entitled, "Correlation Analysis of Waves above a Capacitive Plasma Applicator,"
published on July 22, 2009, acknowledges (on page 4) that the BaPSF is funded by a cooperative
agreement between the DoE and the NSF. Therefore, UCLA believes that the pub lication costs are
allocable to the NSF award and does not agree that costs should be questioned or repaid. However,
UCLA acknowledges that many errors were made in the processing of the vendor invoice causing
Uimecessary delays. UCLA will consider strengtheni ng controls over the cost transfer process.

Finding I 0: Late Effort Report Certifications

UCLA initiated a campus Effort Reporting Workgroup in November 2009 to review in detail all
                               :ertification. Since its inception, the Workgroup has pursued
improvements in the ERS functionality, campus policy, campus training, and best practices.

System functionality issues were a major obstacle at the start, and the group worked effectively to
drive changes to the system in calendar year 20 I 0 and 20 II. System bugs created problems in
generating reports in a time ly manner; system upgrades were slow and sometimes introduced new
system bugs; requirements to account for furlough periods and ARRA awards added
complexity. Tremendous system improvements were made over time, and timeliness of
certifications began to improve.

At the same time, the workgroup recommended improvements to campus policies and procedures in
order to streamline the reporting process. The group also developed and led a series of campus-
wide training programs to ensure in-depth understanding of the federal policy, the ERS, campus
                             70 0 W i lsh ir e Cente r • Mnil code 136648




                                                                                                         Page l 34
                                                                                                 APPEI'o'DIX B




Response 10 1he Coli on and Company LLP Drafl Audil Report ofthe University of California, Los
Angeles for the National Science Foundation (NSf] Office of Inspector General (OIG)
 May 12,201 4
 Page 8


policy and best practices. Finally, the group developed moni toring tools and reports to enable early
identification of problems. EFM uses these tools and repo11s to target visi ts to campus units, to
troubleshoot problems, to fill gaps in training, and to encourage timely certification. Through these
ongoi ng activities, effort reporting compliance has steadily improved. This finding will be shared
with senior management, faculty and staff to provide additional support for focus on improved
timeliness of ceJtifications.




Enclosure

cc:




140512-4
COR
                             700 W il s hire Center • Maitcodc 136648




                                                                                                        Page 135
                                                                                         APPEI'o'DIX B




                                                                          ATTACHMENT A




Begin forwarded message:




                           700   W il shir~   Cen ter • Mailcode 136648




                                                                                             Page l 36
APPENDIX C: OBJECTIVES, SCOPE, AND METHODOLOGY




                                                 Page | 37
                                                                                     APPENDIXC



                           OBJECTIVES, SCOPE, A ND METHODOLOGY

The NSF OIG Office of Audits engaged Cotton & Company LLP (refened to as "we" in this
rep01i) to conduct a performance audit of costs that UCLA incuned on NSF awards for the
period from July 1, 2009, through June 30, 2012. The objectives of the audit were to identify and
rep01i on instances of lmallowable, unallocable, and unreasonable costs, as well as instances of
noncompliance with regulations, federal fmancial assistance requirements, and provisions of the
NSF award agreements as they relate to the transactions tested.




UCLA management is responsible for establishing and maintaining effective internal control to
help ensure that federal award funds are used in compliance with laws, regulations, and award
tenus. In planning and performing our audit, we considered UCLA's internal control solely for
the pmpose of lmderstanding the policies and procedures relevant to the fmancial rep01iing and
administration ofNSF awards in order to evaluate UCLA's compliance with laws, regulations,
and award tenus applicable to the items selected for testing, but not for the pmpose of expressing
an opinion on the effectiveness of UCLA's internal conu·ol over award fmancial reporting and
adminisu·ation. Accordingly, we do not express an opinion on the effectiveness of UCLA's
internal conu·ol over its award financial rep01i ing and adminisu·ation.




                                                                                         Page 138
                                                                                     APPENDIX C

transactions in those                                                             for which we
requested support.

We reviewed the supporting documentation provided by UCLA and evaluated the allowability,
allocability, and reasonableness of each transaction. When necessary, we requested and reviewed
additional supporting documentation and obtained explanations and justifications from UCLA
principal investigators.

We conducted this performance audit in accordance with generally accepted government
auditing standards (GAGAS). These standards require us to obtain reasonable assurance that the
evidence provided is sufficient and appropriate to support the auditors’ findings and conclusions
in relation to the audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                                                                         Page | 39
